TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Business Systems Modernization
                  Program Has Achieved Mixed Success in
                Addressing Weaknesses Identified in Internal
                           and External Studies



                                         November 2005

                              Reference Number: 2006-20-003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             November 21, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Business Systems Modernization Program
                              Has Achieved Mixed Success in Addressing Weaknesses Identified in
                              Internal and External Studies (Audit # 200520026)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) Business Systems Modernization (BSM) Challenges Plan actions have been or will be
 effective in improving and strengthening the overall performance of the modernization program
 by addressing study weaknesses. The IRS Chief Information Officer (CIO) requested the
 Treasury Inspector General for Tax Administration perform a review of the effectiveness of the
 BSM Challenges Plan. This audit is in response to the CIO’s request.
 The IRS is currently engaged in an effort, known as BSM, to modernize its systems and
 associated processes. When the current IRS Commissioner arrived at the IRS in May 2003, the
 Commissioner and the PRIME contractor1 determined they needed fresh assessments from
 outside experts on the health of the BSM program. As a result, in the summer of 2003, the IRS
 launched a comprehensive review comprising three studies of the BSM program. In addition, the
 PRIME contractor launched an internal study. To address the results of these studies, the IRS
 and the PRIME contractor developed a 48-point action plan,2 known as the BSM Challenges
 Plan, designed to address the BSM-related study recommendations.



 1
   The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
 companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
 information technology.
 2
   The BSM Challenges Plan originally consisted of 46 action items. The IRS added two action items based on the
 results of an IRS Oversight Board report: Independent Analysis of IRS Business Systems Modernization, dated
 December 2003. The IRS later merged 10 action items, resulting in 38 action items being actively worked by the
 IRS.
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



Synopsis
The BSM Challenges Plan was intended to address longstanding BSM weaknesses identified in
internal and external studies. Our review of 25 action items found that, for 19 (76 percent) of the
action items, the IRS is achieving this objective by effectively taking actions that should help
address the identified weaknesses. For example, project managers from both the IRS and the
PRIME contractor believe communications have improved following the reorganization of the
modernization governance structure. In addition, the IRS has hired a number of executives from
outside the IRS to increase the management capability and skills available to the BSM program.
For the remaining six items, we identified additional actions we believe are needed to effectively
address the identified weaknesses. For example, the IRS has made improvements in the areas of
configuration and change management and has initiated or planned an ambitious set of activities;
however, it was difficult to determine all the activities that needed to be accomplished or a time
period for the activities because an overall action plan had not been prepared.
In addition, the Associate CIO (ACIO), BSM, informed us the relationship between the IRS and
the PRIME contractor was changing. Under the new operating model, the PRIME contractor
will be a solutions provider and the BSM Office will become the program integrator. BSM
Challenges Plan Action Item 30-07 (Identify key productivity and quality metrics3 across the life
cycle based on industry standards), Action Item 180-09 (Implement enhanced subcontractor
management model), and other action items have been affected by the change in the IRS and
PRIME contractor relationship.

Recommendations
To ensure study weaknesses and previous recommendations concerning change/configuration
management4 are addressed, we recommended the ACIO, Enterprise Services, 1) create an
overall plan that includes defined tasks, responsible individuals, and estimated completion dates
for implementing one process for managing change; 2) create an overall plan that includes
defined tasks, responsible individuals, and estimated completion dates for implementing the
standardized configuration management toolset; and 3) ensure corrective actions are completed




3
  Project metrics, such as total number of requirements added, changed, or deleted, help measure the progress of a
project during development.
4
  Configuration management is a discipline that applies technical and administrative direction and surveillance to
identify and document the functional and physical characteristics of a piece of hardware or software, control changes
to those characteristics and their related documentation, record and report change processing and implementation
status, and verify compliance with specified requirements.
                                                                                                                   2
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies


by assigning executive-level responsibility for addressing configuration management
deficiencies.5
To ensure study weaknesses are addressed as part of the new IRS/PRIME contractor operating
model, we recommended the ACIO, BSM, 1) assume the responsibility for correcting the
identified study weaknesses concerning project metrics, 2) consider enforcement of the
“inspection clause”6 on all new contracts and establish staffing to accomplish inspections, and
3) review additional action items closed due to the change in the IRS/PRIME contractor
operating model to determine if any aspects of the closed action items should be addressed as
part of the new BSM operating model.

Response
The CIO agreed with our recommendations. The CIO responded the BSM Challenges Plan has
evolved to support the BSM program’s goal of continuous improvement. BSM officials have
identified highest priority initiatives, taking into consideration actions from the BSM Challenges
Plan as well as internal and external assessments of the needs of the BSM program.
To ensure study weaknesses and previous recommendations concerning change/configuration
management are addressed, the IRS is creating a plan to implement one process for managing
change requests and Requests for Information Services. The IRS is also hiring a contractor to
assist in identifying a solution that integrates configuration management components on a
Modernization and Information Technology Services organization-wide scale and has assigned
responsibility for addressing configuration management deficiencies. To ensure study
weaknesses are addressed as part of the new IRS/PRIME contractor operating model, the IRS
has initiated a phased approach to identifying, collecting, and using productivity and quality
metrics. In addition, the IRS has completed actions to ensure contractors are held accountable
for work items and commitments (e.g., performing code and documentation inspections) and the
BSM Quality Assurance organization coordinates with subcontractor Quality Assurance
organizations to ensure quality products are delivered. Lastly, the IRS has implemented
processes to define project roles and decision authorities and to conduct life cycle reviews, and is
currently implementing a formal risk elevation process. Management’s complete response to the
draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.

5
 Configuration management deficiencies refer to issues identified during internal configuration management audits.
6
 Inspection clauses can be incorporated into contracts to allow Federal Government employees to inspect the goods
and services completed by subcontractors.
                                                                                                                 3
                        The Business Systems Modernization Program Has Achieved
                          Mixed Success in Addressing Weaknesses Identified in
                                      Internal and External Studies




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Business Systems Modernization Office and the PRIME
          Contractor Have Completed Actions That Have Led to
          Improvements in the Business Systems Modernization Program;
          However, More Work Lies Ahead................................................................Page 4
          Additional Work Is Required to Completely Address Six Closed
          Business Systems Modernization Challenges Plan Action Items.................Page 7
                    Recommendations 1 through 4: ................................................ Page 12

                    Recommendations 5 and 6: ....................................................... Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Independent Assessment of the Business Systems
          Modernization Challenges Plan Status .........................................................Page 18
          Appendix V – Enterprise Life Cycle Overview............................................Page 39
          Appendix VI – Business Systems Modernization Project Descriptions.......Page 44
          Appendix VII – Management’s Response to the Draft Report.....................Page 46
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies




                                            Background

The Internal Revenue Service (IRS) is currently engaged in an effort, known as Business
Systems Modernization (BSM), to modernize its systems and associated processes. To facilitate
the success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the
PRIME contractor and integrator for the BSM program and created the BSM Office (BSMO) to
guide and oversee the work of the PRIME contractor.1
While the IRS and PRIME contractor have deployed projects that provide value to taxpayers and
have built the infrastructure needed to support these projects, the IRS and its contractors have
drawn increased criticism due to continuing schedule delays and cost increases. When the
current IRS Commissioner arrived at the IRS in May 2003, the Commissioner and the PRIME
contractor determined they needed fresh assessments from outside experts on the health of the
BSM program. As a result, in the summer of 2003, the IRS launched a comprehensive review
comprising three studies of the BSM program. In addition, the PRIME contractor launched an
internal study.
The BSM program released the results of these studies early in Fiscal Year 2004. The studies
were commissioned to identify specific areas for improvement in the BSM program. To address
the results of these studies, the IRS and the PRIME contractor developed a 48-point action plan,2
known as the BSM Challenges Plan, designed to address the BSM-related study
recommendations. The IRS later merged 10 action items, resulting in 38 action items being
actively worked by the IRS. On May 1, 2004, the BSM Challenges Plan Close-Out Report was
released detailing the actions taken to address BSM challenges.
In the summer of 2004, the IRS Chief Information Officer (CIO) requested the Treasury
Inspector General for Tax Administration (TIGTA) perform a review of the effectiveness of the
BSM Challenges Plan. In December 2004, we issued a report on the results of that audit.3 We
determined key IRS executives and stakeholders quickly acknowledged BSM shortcomings and
developed action items to address the studies’ recommendations and resolve longstanding BSM
issues. However, we determined the studies’ recommendations were not fully addressed by the
BSM Challenges Plan; no measurement plan was created to determine if the actions taken


1
  The PRIME contractor heads an alliance of leading technology companies brought together to assist with the IRS’
efforts to modernize its computer systems and related information technology.
2
  The BSM Challenges Plan originally consisted of 46 action items. The IRS added two action items based on the
results of an IRS Oversight Board report: Independent Analysis of IRS Business Systems Modernization, dated
December 2003.
3
  The Internal Revenue Service Should Ensure the Root Causes of Business Systems Modernization Performance
Problems Are Successfully Addressed (Reference Number 2005-20-014, dated December 2004).
                                                                                                          Page 1
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



resulted, or will result, in actual improvements in the BSM program; and many BSM Challenges
Plan action items were closed before all significant activities were completed.
In August 2004, the Associate CIO (ACIO), Modernization Management, identified the key
barriers to success in the BSM program and created a plan to address these barriers. This plan
included detailed, high-priority initiatives to deal with the root causes that created the barriers.
Since many of the BSM Challenges Plan action items were reopened following our initial
review, this audit was initiated to review the effectiveness of the BSM Challenges Plan. We
analyzed the audit work that had been completed during other reviews of the BSM program that
related to the action items, performed indepth work on the effectiveness of the six additional
action items shown in Figure 1, and evaluated the status of action items as communicated by the
IRS.
            Figure 1: BSM Challenges Plan Action Items Reviewed in Depth
                                As Part of This Audit

                     Action
                      Item
                     Number                       Action Item Description
                   30-04            Clarify roles of committees as advisory.
                   30-07            Identify key productivity and quality metrics4
                                    across the life cycle based on industry
                                    standards.
                   90-07            Refine change request5 process.
                   90-17            Establish a BSM Acquisition Executive.
                   180-05           Strengthen IRS program and project manager
                                    cadre.
                   180-09           Implement enhanced subcontractor management
                                    model.

                  Source: BSM Challenges Plan and this report.




4
  Project metrics, such as total number of requirements added, changed, or deleted, help measure the progress of a
project during development.
5
  A change request is the medium for requesting approval to change a baselined product or other controlled item.
                                                                                                             Page 2
                  The Business Systems Modernization Program Has Achieved
                    Mixed Success in Addressing Weaknesses Identified in
                                Internal and External Studies



This audit was conducted while changes were being made at the BSM program level, including a
significant change in the relationship between the IRS and the PRIME contractor. Any changes
that have occurred since we concluded our analyses in April 2005 are not reflected in this report.
This review was performed at the BSMO facilities in New Carrollton, Maryland, during the
period October 2004 through April 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 3
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



                                        Results of Review

The Business Systems Modernization Office and the PRIME
Contractor Have Completed Actions That Have Led to Improvements
in the Business Systems Modernization Program; However, More
Work Lies Ahead

The BSM Challenges Plan was intended to address longstanding BSM weaknesses identified in
internal and external studies. Our review of 25 action items found that, for 19 (76 percent) of the
action items, the IRS is achieving this objective by effectively taking actions that should help
address the identified weaknesses. For the remaining six items, we identified additional actions
we believe are needed to effectively address the identified weaknesses. These items are
discussed in detail later in the report.
In addition, we did not draw any conclusions about the remaining 13 of 38 total BSM Challenges
Plan action items because the items met 1 or more of the following 3 criteria:
      •    The IRS reports the action items are open or involve ongoing activities.
      •    A Fiscal Year 2005 TIGTA audit is currently being conducted to review the action items.
      •    The TIGTA has not scheduled an audit of the action items and does not have enough
           information or background knowledge to be able to express an opinion.
Figure 2 summarizes our opinions on the closure status of BSM Challenges Plan action items.6




6
    See Appendix IV for a detailed explanation supporting our conclusions.
                                                                                            Page 4
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies




                  Figure 2: TIGTA Opinion on the Closure Status of
                         BSM Challenges Plan Action Items



                               6
                                                                         Agree
                                                   19
                        13                                               Did Not Determine
                                                                         More Work Needed




                 Source: TIGTA analysis of the current status of the BSM Challenges
                 Plan dated June 6, 2005.


The IRS has successfully closed 19 BSM Challenges Plan action items

We determined the IRS has effectively closed 19 BSM Challenges Plan action items. Some
examples of positive outcomes that resulted from closing these action items follow.
   •   Action Item 30-04 (Clarify roles of committees as advisory) – The PRIME
       contractor’s internal study found the decision-making process was ambiguous, with
       multiple steering committees, review meetings, and individuals either recommending,
       agreeing, providing input, or making decisions. Based on the responses to a TIGTA
       questionnaire (see Figure 3), project managers from both the IRS and the PRIME
       contractor believe communications have improved following the reorganization of the
       modernization governance structure.




                                                                                             Page 5
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies




       Figure 3: BSM Project Managers’ Responses to TIGTA Questionnaire
         Concerning the Extent to Which Communications Have Improved


                                           5.88%

                     32.35%
                                                                                   Better
                                                                                   Same
                                                                                   Worse


                                                                  61.76%


                     Source: Responses to TIGTA questionnaires.

   •   Action Item 180-05 (Strengthen IRS program and project manager cadre) – The IRS
       Oversight Board recommended the management cadre be significantly strengthened by
       increasing the experience and capabilities of the BSM team. This would require a
       meaningful number of outside hires from organizations that have experience with large,
       complex programs. The IRS has hired a number of executives from outside the IRS to
       increase the management capability and skills available to the BSM program.
   •   Action Item 90-17 (Establish a BSM Acquisition Executive) – One of the external
       studies recommended the IRS increase focus on performance-based acquisitions. The
       executive the IRS hired for modernization to complete this Action Item has Department
       of Defense level 3 equivalent certification in contracting and program management and
       has created a plan aimed at addressing performance-based acquisitions.
In addition, other actions items, such as 180-15 (Reduce the number of projects being conducted
at the same time), have been accomplished. We believe focusing on a smaller set of projects will
lead to improvements in the BSM program and have recommended this action in the past.




                                                                                            Page 6
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies




Additional Work Is Required to Completely Address Six Closed
Business Systems Modernization Challenges Plan Action Items

In a program of the size and complexity of the BSM program, it is not unreasonable to expect
that changes will take time to implement and additional actions will be needed to correct
weaknesses. Of the 25 BSM Challenges Plan action items we reviewed, there are 6 we believe
require more work to completely address internal and external study weaknesses. The remainder
of this report will discuss these six action items.

Action Item 90-07 (Refine change request process)

The IRS internal study recommended improving immature management processes. One of the
processes singled out in the BSM Challenges Plan was the change request process. BSM
Challenges Plan Action Item 90-07 was initiated for this purpose. In addition, some of the
activities taken as a result of this Action Item respond to our previous recommendations.
The IRS has made improvements in the areas of configuration and change management and has
initiated or planned an ambitious set of activities; however, it was difficult to determine all the
activities that needed to be accomplished or a time period for the activities because an overall
action plan had not been prepared. For example:
    •   Improving the change process – The IRS and the PRIME contractor had developed
        ambitious proposals for unifying and controlling change requests and Requests for
        Information Services;7 however, an overall plan including defined tasks, responsible
        individuals, and estimated completion dates had not been completed.
    •   Implementing a standardized configuration management8 toolset – In a prior audit, we
        determined some Information Technology Services organizations used different
        configuration management software that did not comply with the Enterprise
        Architecture.9 We recommended the CIO develop a transition plan to implement

7
  The Request for Information Services process provides a common framework to document, control, monitor, and
track requests to the Modernization and Information Technology Services (MITS) organization for changes to IRS
computer systems and for support.
8
  Configuration management is a discipline that applies technical and administrative direction and surveillance to
identify and document the functional and physical characteristics of a piece of hardware or software, control changes
to those characteristics and their related documentation, record and report change processing and implementation
status, and verify compliance with specified requirements.
9
  The Enterprise Architecture defines the IRS’ future business objectives, processes, requirements, products and
services to be offered, and basic computer hardware and software that will be used to provide these services.
                                                                                                            Page 7
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



         standardized Enterprise Architecture-compliant configuration management software.10
         We determined the IRS created a plan; however, it would be several years before it was
         fully implemented. While there are many activities ahead, the plan did not include
         estimated dates when activities are planned to be accomplished or assign accountability
         for ensuring the activities are completed.
     •   Revising the Configuration Management Directive11 – In a previous audit, we
         recommended the CIO modify the Modernization and Information Technology Services
         (MITS) Configuration Management Directive and procedures to 1) assign responsibility
         for ensuring MITS organization configuration management processes are implemented
         throughout the Information Technology Services organization and coordinated with the
         BSMO and configuration management deficiencies12 are appropriately addressed and
         2) establish governance policies, similar to those used by the BSMO, for defining the
         authority levels and threshold criteria to approve and control changes to the production
         environment in the Information Technology Services organization.13
         While the majority of the corrective actions related to our prior recommendations have
         been completed successfully,14 we determined the revised Configuration Management
         Directive did not establish executive-level responsibility for addressing configuration
         management deficiencies. If executive-level responsibility were assigned for addressing
         configuration management deficiencies, higher visibility would be given to ensuring
         known configuration management problems are corrected.
Without an overall plan that includes defined tasks, responsible individuals, and estimated
completion dates, as required by sound management practices, there is a high risk significant
tasks may not be completed. An overall action plan had not been created because the IRS was

10
   Additional Actions Are Needed to Establish and Maintain Controls Over Computer Hardware and Software
Changes (Reference Number 2004-20-026, dated December 2003).
11
   The Configuration Management Directive establishes authority and responsibility for the performance of
configuration management activities throughout the MITS organization.
12
   Configuration management deficiencies refer to issues identified during internal configuration management
audits.
13
   Additional Actions Are Needed to Establish and Maintain Controls Over Computer Hardware and Software
Changes (Reference Number 2004-20-026, dated December 2003).
14
   The IRS significantly modified the Configuration Management Directive in September 2004 to include mandates
to raise the level of responsibility for configuration management, improve the governance structure, and
institutionalize configuration management processes throughout the MITS organization. The Configuration
Management Directive requires MITS organization-wide implementation, as well as coordination with the BSMO,
of all Information Technology Services organization-initiated changes. In line with the Directive, the charters for
the Configuration Control Boards for the MITS organization, the Information Technology Services organization,
and the BSMO were updated in December 2004, and the Authority Level and Threshold Criteria Directive was
updated to conform to the current governance structure. In addition, the ACIO, Enterprise Services, recently
assumed responsibility for several MITS organization processes, including MITS organization-wide configuration
management process improvements.
                                                                                                            Page 8
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



hiring an executive to oversee highly complex information system initiatives such as
configuration management.
Management Actions: During our audit, the IRS hired the ACIO, Enterprise Services, to oversee
the configuration management process. During discussion of our concerns with the ACIO,
Enterprise Services, we were informed a unified work request process group was created to
develop a plan to unify change request and Request for Information Services processing. The
ACIO, Enterprise Services, provided a charter for the group and a draft project management plan
to guide activities. In addition, the ACIO, Enterprise Services, provided a draft set of objectives
for the unified work request process initiative:
       •   Unify and improve effectiveness of fragmented work request processes.
       •   Integrate with investment prioritization and control processes.
       •   Integrate with change and configuration management processes.
       •   Incorporate flexibility and discipline for a wide range of work request types.
The ACIO, Enterprise Services, indicated the configuration management work request
recommendations should be completed in the summer of 2005 and many of the processes should
be in place by early fall of 2005.

Action Item 30-07 (Identify key productivity and quality metrics across the life
cycle based on industry standards)

In February 2005, the ACIO, BSM, informed us the relationship between the IRS and the
PRIME contractor was changing. Under the new operating model, the PRIME contractor will be
a solutions provider and the BSMO will become the program integrator.
One BSM Challenges Plan action item affected by the new operating model is Action
Item 30-07. The PRIME contractor was initially responsible for this Action Item, which
involved developing and implementing project-level productivity and quality metrics for
modernization projects across the entire life cycle.
To close Action Item 30-07, the PRIME contractor prepared a plan entitled PRIME Program
Enterprise Life Cycle Key Productivity and Quality Measures Roll Out Plan. Our review of this
Plan determined:
       •   The Plan was never updated or completed.
       •   Only the suggested metrics for Milestone 415 were defined in detail.
       •   Documentation on stakeholders’ reviews of the PRIME contractor’s Plan was not
           available. The PRIME Program Enterprise Life Cycle Key Productivity and Quality


15
     See Appendix V for a description of Enterprise Life Cycle milestones.
                                                                                            Page 9
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies



       Measures Roll Out Plan stated the effectiveness of the Plan would be determined through
       stakeholder reviews.
   •   The BSM Key Productivity and Quality Measures Plan mentioned in the PRIME
       contractor’s Plan was never created.
The Deputy ACIO, Business Integration, informed us the recent change in the IRS/PRIME
contractor operating model caused the PRIME contractor to dissolve its Estimation and
Maintenance Office, which had created the PRIME contractor’s Plan. The Deputy ACIO,
Business Integration, also informed us she had begun an initiative on program-level metrics,
unrelated to Action Item 30-07. Based on our conversation, she also stated it might be useful
for her staff to refer to the PRIME contractor’s Plan while developing and enhancing
program-level metrics. This research leads us to conclude study weaknesses were not fully
addressed by activities taken under Action Item 30-07.
Management Action: We communicated our concerns with Action Item 30-07 to the
ACIO, BSM, on April 5, 2005. The ACIO, BSM, responded by stating over 300 measures had
been identified as candidates for the MITS organization performance scorecard. For certain
measures, standard contract language was being developed for use in future contracts. In
addition, the ACIO, BSM, indicated the IRS first wants to ascertain what data are already
available to support useful metrics without specifically tasking contractors. Once this is
complete, the IRS would determine what needs to change.

Action Item 180-09 (Implement enhanced subcontractor management model)

Action Item 180-09 is also affected by the new IRS/PRIME contractor operating model. The
PRIME contractor’s internal study identified improved subcontractor accountability and delivery
as an issue. BSM Challenges Plan Action Item 180-09 was developed to resolve this issue.
The PRIME contractor provided a listing of improvement activities completed in response to this
Action Item. For example, the PRIME contractor conducted subcontractor performance
evaluations and required additional data from subcontractors. However, processes had not been
established to ensure the activities were performed on a routine basis and did not involve
trending of subcontractor performance. Therefore, we were not confident the improvement
activities would be repeated; without trending, it would not be possible to determine whether
subcontractor performance was improving.
Based on the new operating model, the PRIME contractor activity for Action Item 180-09 was
closed. Without a PRIME contractor program office in place, the BSMO will need to ensure
contractors are adequately overseeing their subcontractors. One way to achieve this is through
the use of inspection clauses, which can be incorporated into contracts to allow Federal
Government employees to inspect the goods and services completed by subcontractors.


                                                                                         Page 10
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



Management Action: On February 22, 2005, we communicated our concerns with Action
Item 180-09 to the ACIO, BSM, who responded he was interested in our concerns and would
discuss the issue with the Office of Procurement.

Other action items affected by the change in the IRS/PRIME contractor operating
model

The change in the IRS/PRIME contractor operating model also affected three additional BSM
Challenges Plan action items. All three were closed based on the new operating model.
     •   Action Item 30-03 (Enforce rapid escalation of issues) – An issue is defined as a
         situation or condition that either (1) currently has negative consequences for the
         program/project or (2) has 100 percent probability of having negative consequences for
         the program/project. In a complex environment, it is important for issues to be raised for
         resolution as quickly as possible.
     •   Action Item 90-12 (Ensure projects strictly follow the Enterprise Life Cycle and
         appropriate alternatives within the Enterprise Life Cycle are selected) – Since
         projects differ in size and complexity, it is important to provide guidance to project
         personnel on choosing what activities from the Enterprise Life Cycle are most
         appropriate.
     •   Action Item 180-11 (Clarify roles between the IRS and the PRIME contractor) –
         This Action Item involved improving four processes: change request versus defect16
         reporting resolution, issue resolution, integrated master schedule17 management, and
         change request resolution.
If improvement activities for these Action Items do not continue, it is possible study weaknesses
will persist. Since the processes in the above three Action Items will remain important
regardless of who the program integrator is, it would be prudent to determine how these actions
are going to be managed with the BSMO as the new program integrator.




16
   A defect is a perceived problem found in software, documents, hardware, or other controlled products. Defect
processing is the process of documenting the defect, tracking the defect and its corrective action, and reporting the
status of each defect.
17
   The integrated master schedule provides a schedule for project development and integration of all BSM projects.
                                                                                                             Page 11
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies




Recommendations
To ensure study weaknesses and previous recommendations concerning change/configuration
management are addressed, the ACIO, Enterprise Services, should:
Recommendation 1: Create an overall plan that includes defined tasks, responsible
individuals, and estimated completion dates for implementing one process for managing change
requests and Requests for Information Services.
       Management’s Response: The CIO agreed with this recommendation. To ensure
       study weaknesses and previous recommendations concerning change/configuration
       management are addressed, the IRS is creating a plan to implement one process for
       managing change requests and Requests for Information Services. The IRS expects to
       complete the plan by December 31, 2005, and implement a system by October 31, 2006.
Recommendation 2: Create an overall plan that includes defined tasks, responsible
individuals, and estimated completion dates for implementing the standardized configuration
management toolset.
       Management’s Response: The CIO agreed with this recommendation. The IRS is
       hiring a contractor to assist in identifying a solution that integrates configuration
       management components on a MITS organization-wide scale, with a tool solution that
       supports the integrated process. The IRS expects to complete a plan to implement the
       configuration management toolset by April 2006.
Recommendation 3: Ensure corrective actions are completed by assigning executive-level
responsibility for addressing configuration management deficiencies.
       Management’s Response: The CIO agreed with this recommendation. The IRS has
       already assigned responsibility for addressing configuration management deficiencies.
       Significant issues identified during internal configuration audits will be assigned to the
       appropriate executive, and documentation issues identified during compliance assessment
       audits will be assigned to the appropriate project manager.
To ensure study weaknesses are addressed as part of the new IRS/PRIME contractor operating
model, the ACIO, BSM, should:
Recommendation 4: Assume the responsibility for correcting the identified study
weaknesses concerning project metrics by:
   a. Identifying a group of standardized productivity and quality metrics needed for all
      projects across the entire life cycle, defining these metrics, ensuring the metrics are
      collected or calculated, and using the metrics to consistently manage projects.


                                                                                           Page 12
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies



   b. Considering the impact of project-level metrics on the effort by the Deputy ACIO,
      Business Integration, to develop program-level metrics. Identification of a standard set of
      project-level metrics could collectively become program-level metrics or provide needed
      details for analysis in trends at the program level.
       Management’s Response: The CIO agreed with this recommendation. The IRS has
       initiated a phased approach to identifying, collecting, and using productivity and quality
       metrics. The IRS will continue to use existing metrics as it makes improvements in
       identifying, collecting, and using productivity and quality metrics. The IRS is currently
       working to develop cost and schedule variance metrics and will then focus on
       establishing a performance measurement framework, targeting business value metrics
       first.
Recommendation 5: Consider enforcement of the “inspection clause” on all new contracts
and establish staffing to accomplish inspections.
       Management’s Response: The CIO agreed with this recommendation. The IRS has
       completed actions to ensure contractors are held accountable for work items and
       commitments. For example, the IRS is performing code and documentation inspections,
       as well as conducting testing. In addition, the BSM Quality Assurance organization
       coordinates with subcontractor Quality Assurance organizations to ensure quality
       products are delivered.
Recommendation 6: Review additional action items closed due to the change in the
IRS/PRIME contractor operating model to determine if any aspects of the closed action items
should be addressed as part of the new BSM operating model.
       Management’s Response: The CIO agreed with this recommendation. The IRS is
       currently implementing a formal risk elevation management process, which includes the
       use of risk coordinators on each project and regular project and executive risk reviews.
       The IRS has already implemented a process to define project roles and decision
       authorities. This process is part of the Enterprise Life Cycle and will apply to any
       contractor with whom the IRS works. Lastly, the IRS has implemented four processes to
       conduct life cycle reviews across all phases of the Enterprise Life Cycle.




                                                                                         Page 13
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) Business Systems Modernization (BSM) Challenges Plan actions have been or will be
effective in improving and strengthening the overall performance of the modernization program
by addressing study weaknesses.1 NOTE: At the beginning of our review, we chose to review
6 action items in depth because the other 42 BSM Challenges Plan action items 1) had been
merged into other action items, 2) were the subject of other Treasury Inspector General for Tax
Administration audits, 3) had not progressed far enough to warrant a review, or 4) were
low-priority audit items.
To accomplish this objective, we:
I.       Determined if the BSM Acquisition Executive had a documented plan to address study
         weaknesses (Action Item 90-17, Establish a BSM Acquisition Executive).
II.      Determined if new project managers (Director, Internal Management, and Director,
         Infrastructure Management) had a documented plan to address study weaknesses (Action
         Item 180-05, Strengthen IRS program and project manager cadre).
III.     Determined if IRS and contractor project managers indicated the new governance
         structure had resulted in clearer or more consistent instructions (Action Item 30-04,
         Clarify roles of committees as advisory). NOTE: To answer this question, we submitted
         a questionnaire to five IRS and five contractor project managers for three of the six tax
         administration/internal management projects (Customer Account Data Engine
         [two releases], e-Services, and Integrated Financial System) and one of the two core
         infrastructure projects (Infrastructure Shared Services)2 funded in the Fiscal Year 2004
         expenditure plan.
IV.      Determined if the activities being taken as part of BSM Challenges Plan Action Items
         180-09 (Implement enhanced subcontractor management model), 90-07 (Refine change


1
  In mid-2003, the IRS and the PRIME contractor (hired by the IRS as the integrator for the BSM program) initiated
four studies to help identify the root causes of the problems hindering the BSM effort and make recommendations to
remedy the problems identified. Key IRS executives and stakeholders reviewed the results of the four studies and
created actions to address the study recommendations. These actions collectively became known as the BSM
Challenges Plan.
2
  We did not send a questionnaire to the other three tax administration/internal management projects because the
PRIME contractor was not the lead contractor for those projects. We did not send a questionnaire to the second
infrastructure project because this project was a consolidated administrative and oversight function for three related
infrastructure support environments. See Appendix VI for a list of BSM projects and descriptions.

                                                                                                             Page 14
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



        request process), and 30-07 (Identify key productivity and quality metrics3 across the life
        cycle based on industry standards) effectively addressed the associated weaknesses
        identified in the recent studies.
V.      Identified the results of previous audits concerning BSM Challenges Plan action items.
VI.     Evaluated the status of action items as communicated by the IRS.




3
 Project metrics, such as total number of requirements added, changed, or deleted, help measure the progress of a
project during development.

                                                                                                           Page 15
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Paul M. Mitchell, Lead Auditor
Tina Wong, Senior Auditor
Steven W. Gibson, Auditor
Perrin T. Gleaton, Auditor




                                                                                         Page 16
                The Business Systems Modernization Program Has Achieved
                  Mixed Success in Addressing Weaknesses Identified in
                              Internal and External Studies



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Associate Chief Information Officer, Management OS:CIO:M
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 17
                    The Business Systems Modernization Program Has Achieved
                      Mixed Success in Addressing Weaknesses Identified in
                                  Internal and External Studies



                                                                                             Appendix IV

    Independent Assessment of the Business Systems
          Modernization Challenges Plan Status

To obtain fresh and independent assessments from outside experts on the health of the Business
Systems Modernization (BSM) program, the Internal Revenue Service (IRS) launched a
comprehensive review consisting of three studies and a BSM benchmarking analysis. In
addition, the PRIME contractor1 launched an internal study. The studies resulted in
21 recommendations for improvement in the BSM program, 15 of which were similar to those
made in Treasury Inspector General for Tax Administration (TIGTA) reports issued over several
years.2 Key IRS executives and stakeholders reviewed the results of the four studies, quickly
acknowledged BSM shortcomings, and developed actions to address the studies’
recommendations and resolve longstanding BSM issues. Collectively, these actions became
known as the BSM Challenges Plan.
Based on our analysis of actions taken and the latest IRS BSM Challenges Plan status report
(dated June 6, 2005), we created the following categories to document our opinion on the closing
of each BSM Challenges Plan action item:
    •   Agree (19) – Activities conducted as part of the BSM Challenges Plan meet one of the
        following criteria: 1) the action item effectively corrected weaknesses found in the
        studies, 2) the IRS reports it has completed or is in the process of completing corrective
        actions to all relevant TIGTA recommendations, or 3) activities have been completed, yet
        it will take time to determine the effectiveness of the action item.
    •   Did Not Determine (13) – Activities conducted as part of the BSM Challenges Plan meet
        one or more of the following three criteria: 1) the IRS reports the action item is open or
        involves ongoing activities, 2) a Fiscal Year (FY) 2005 TIGTA audit is currently being
        conducted to review the action item, and/or 3) the TIGTA has not scheduled an audit of
        the action item and does not have enough information or background knowledge to be
        able to express an opinion.
    •   More Work Needed (6) – Activities conducted as part of the BSM Challenges Plan have
        not completely addressed study weaknesses.


1
  The IRS hired the Computer Sciences Corporation as the PRIME contractor and integrator for the BSM program.
The PRIME contractor heads an alliance of leading technology companies brought together to assist with the IRS’
efforts to modernize its computer systems and related information technology.
2
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2004-20-107, dated
June 2004).

                                                                                                        Page 18
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



Details on our reasons for categorizing each BSM Challenges Plan action item are shown in
Figure 1.


        Figure 1: TIGTA Opinion on the Status of BSM Challenges Plan Action Items

          ACTION ITEM                       HISTORICAL TIGTA                               TIGTA
          NUMBER AND                     ASSESSMENT/CURRENT IRS                         CONCURRENCE
    #     DESCRIPTION                            STATUS                                 WITH CLOSURE
    1     30-01 – Make business
          owner and program director
                                                              Merged into Action Item 90-10
          accountable for project
          success.
    2     30-02 – Implement short       Previous TIGTA Assessment: Action Item       Agree – The projects, which
          duration, discrete “Tiger     30-02 was extended to the Custodial          used Tiger Teams, were
          Teams” in Customer            Accounting Project. The BSM Office           deployed. The IRS has
          Account Data Engine           (BSMO)4 initiated three reviews led by       completed corrective actions
          (CADE), Integrated            Tiger Teams resulting in                     to all relevant TIGTA
          Financial System (IFS), and   24 recommendations for the project. We       recommendations.
          e-Services.3                  determined only 2 of the 24 had been
                                        implemented and recommended the
                                        remaining 22 be implemented as soon as
                                        possible.5
                                        Corrective Action: The IRS closed this
                                        finding by addressing the remaining
                                        relevant 22 Tiger Team recommendations.
                                        Joint Audit Management Enterprise System
                                        (JAMES)6 Corrective Action Completion
                                        Date: April 1, 2005.
                                        IRS Status: Closed – The Tiger Teams
                                        were initiated to drive delivery of three
                                        systems. All three systems were delivered
                                        and the Action Item was closed
                                        December 12, 2004.




3
  See Appendix VI for a list of BSM projects and descriptions.
4
  The IRS created the BSMO to guide and oversee the work of the PRIME contractor.
5
  System Requirements Were Not Adequately Managed During the Testing of the Custodial Accounting Project
(Reference Number 2005-20-019, dated December 2004).
6
  The JAMES is a Department of the Treasury database that monitors and tracks the progress of internal control
issues and material weaknesses within the Department.

                                                                                                          Page 19
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



        ACTION ITEM                          HISTORICAL TIGTA                                 TIGTA
        NUMBER AND                        ASSESSMENT/CURRENT IRS                           CONCURRENCE
    #   DESCRIPTION                               STATUS                                   WITH CLOSURE
    3   30-03 – Enforce rapid            Previous PRIME Quality Management              More Work Needed –
        escalation of issues.            Office Assessment: The PRIME contractor        Activities conducted as part of
                                         performed an audit and found the risk          the BSM Challenges Plan
                                         escalation process within the Item Tracking    have not completely addressed
                                         Reporting and Control (ITRAC)7 system          study weaknesses. See the
                                         had not been used properly and the PRIME       Additional Work Is
                                         Item Escalation procedure had not been         Required to Completely
                                         updated.8                                      Address Six Closed BSM
                                                                                        Challenges Plan Action
                                         Corrective Action: No management               Items section in this report for
                                         response or corrective action is shown in      additional information on this
                                         the PRIME contractor audit report.             Action Item. See also
                                         IRS Status: Closed – The PRIME                 Recommendation 6 in this
                                         contractor amended the escalation process      report.
                                         to correct this problem. This is one of five
                                         action items closed due to the shift in
                                         program management and project
                                         integration responsibilities from the PRIME
                                         contractor to the IRS in early 2005. The
                                         Action Item was closed January 27, 2005.
    4   30-04 – Clarify roles of         Previous TIGTA Assessment: No previous         Agree – Activities have been
        committees as advisory.          TIGTA assessment has been made.                completed, yet it will take
                                                                                        time to determine the
                                         IRS Status: Closed – The modernization         effectiveness of the Action
                                         governance committees were renamed and         Item.
                                         the charters were rewritten. The Action
                                         Item was closed November 21, 2003.
    5   30-05 – Designate business
        architects for all projects to
        support business insight                                Merged into Action Item 90-10
        required throughout the
        project life.
    6   30-06 – Align critical
        engineering talent to most                              Merged into Action Item 90-08
        critical projects.




7
  The BSM Risk Management Plan requires that all modernization organizations use the ITRAC database to record
and update the status of risks and issues.
8
  In-Progress Assessment Plan/Report: Assess the utilization and effectiveness of the PRIME Item Escalation
procedure (dated September 2004).

                                                                                                              Page 20
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                         HISTORICAL TIGTA                                TIGTA
         NUMBER AND                       ASSESSMENT/CURRENT IRS                          CONCURRENCE
     #   DESCRIPTION                              STATUS                                  WITH CLOSURE
     7   30-07 – Identify key            Previous TIGTA Assessment: No previous        More Work Needed –
         productivity and quality        TIGTA assessment has been made.               Activities conducted as part of
         metrics across the life cycle                                                 the BSM Challenges Plan
         based on industry standards.    IRS Status: Closed – This Action Item was     have not completely addressed
                                         closed March 8, 2005, due to the shift in     study weaknesses. See the
                                         program management and project                Additional Work Is
                                         integration responsibilities from the PRIME   Required to Completely
                                         contractor to the IRS in early 2005.          Address Six Closed BSM
                                                                                       Challenges Plan Action
                                                                                       Items section in this report for
                                                                                       additional information on this
                                                                                       Action Item. See also
                                                                                       Recommendation 4 in this
                                                                                       report.
     8   30-08 – Ensure more             Previous TIGTA Assessment: To expedite        Agree – The IRS has
         effective integration of IRS    testing of the IFS Release 1 project, the     completed corrective actions
         and PRIME/Subs test teams.      BSMO and the PRIME contractor decided         to all relevant TIGTA
                                         to combine the System Acceptability           recommendations.
                                         Testing (SAT)9 with the System Integration
                                         Testing (SIT)10 process, but we determined
                                         this new process had not been documented
                                         as a separate Enterprise Life Cycle (ELC)11
                                         process. We also determined independent
                                         testing roles in the combined test process
                                         had not been documented.
                                         Corrective Action: The IRS closed this
                                         finding by obtaining final signatures and
                                         updating life cycle documentation.
                                         JAMES Corrective Action Completion
                                         Date: April 28, 2005.
                                         IRS Status: Closed – The combined
                                         SIT-SAT testing process has been
                                         documented and has been used. This
                                         Action Item was closed April 28, 2005.




9
  The SAT independently assesses the quality of a system and the system’s readiness for implementation.
10
   The SIT ensures all system components (hardware and software) are working correctly and collectively with other
related or dependent systems.
11
   See Appendix V for an overview of the ELC.

                                                                                                             Page 21
                        The Business Systems Modernization Program Has Achieved
                          Mixed Success in Addressing Weaknesses Identified in
                                      Internal and External Studies



         ACTION ITEM                       HISTORICAL TIGTA                               TIGTA
         NUMBER AND                     ASSESSMENT/CURRENT IRS                         CONCURRENCE
     #   DESCRIPTION                            STATUS                                 WITH CLOSURE
     9   30-09 – Complete the
         Acquisition Solutions
         Incorporated study to                              Merged into Action Item 180-08
         address IRS and PRIME
         contractor issues.
 10      30-10 – Identify “blockers”   Previous TIGTA Assessment: Contract          Agree – Activities have been
         on current contracting        blockers referred to two task orders that    completed for the Action Item.
         issues.                       needed to be signed. We determined these
                                       task orders had been signed.
                                       IRS Status: Closed – Blockers were
                                       identified and resolved. The Action Item
                                       was closed November 10, 2003.
 11      30-11 – Baseline the          Previous TIGTA Assessment: CADE              Agree – Since CADE
         risk-adjusted schedule for    Release 1.1 was released within budget and   Release 1.1 was released on
         CADE Releases 1.0 and 1.1.    on time based on rebaselined estimates.12    time after rebaselining, we
                                                                                    conclude the Action Item
                                       IRS Status: Closed – The risk-adjusted       effectively corrected
                                       schedule and new baseline for CADE           weaknesses found in the
                                       R1.0/1.1 was established and approved at     studies.
                                       the January 7, 2004, executive review
                                       meeting. The Action Item was closed
                                       January 17, 2004.
 12      30-12 – Move acceptance       Previous TIGTA Assessment: No previous       Unable To Determine –
         testing earlier in the life   TIGTA assessment has been made.              During our audit, audit work
         cycle.                                                                     was being conducted to
                                       IRS Status: Closed – Moving the SAT          review this Action Item.
                                       earlier in the life cycle has now been       Since the completion of our
                                       instituted in the CADE and all other         audit work, an FY 2006
                                       projects. The Action Item was closed         TIGTA audit report13 has been
                                       October 28, 2003.                            issued regarding the Action
                                                                                    Item.




12
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102,
dated August 2005).
13
   Instilling More Discipline to Business Rules Management Will Help the Modernization Program Succeed
(Draft Report issued October 2005).

                                                                                                         Page 22
                  The Business Systems Modernization Program Has Achieved
                    Mixed Success in Addressing Weaknesses Identified in
                                Internal and External Studies



     ACTION ITEM                      HISTORICAL TIGTA                              TIGTA
     NUMBER AND                    ASSESSMENT/CURRENT IRS                        CONCURRENCE
#    DESCRIPTION                           STATUS                                WITH CLOSURE
13   30-13 – Increase the         Previous TIGTA Assessment: No previous      Unable To Determine – The
     frequency of CADE            TIGTA assessment has been made.             TIGTA has not scheduled an
     program reviews to twice                                                 audit of the Action Item and
     monthly with the business    IRS Status: Closed – The IRS reports        does not have enough
     owner.                       meetings were scheduled twice monthly for   information or background
                                  the PRIME contractor CADE project           knowledge to be able to
                                  managers and the IRS CADE team. CADE        express an opinion.
                                  meetings continue to take place twice
                                  monthly. The Action Item was closed
                                  November 3, 2003.
14   30-14 – Formally assign
     accountability to the CADE
                                                        Merged into Action Item 90-10
     Business Owner and the
     CADE Project Director.
15   90-01 – Streamline the       Previous TIGTA Assessment: No previous      Unable To Determine – The
     MITS [Modernization and      TIGTA assessment has been made.             TIGTA has not scheduled an
     Information Technology                                                   audit of the Action Item and
     Services] organization       IRS Status: Closed – The modernization      does not have enough
     governance process.          governance committees were renamed and      information or background
                                  charters were rewritten. The Change         knowledge to be able to
                                  Control Boards are functional and the       express an opinion.
                                  Associate Chief Information Officer
                                  (ACIO), Enterprise Services, is on board.
                                  The Action Item was closed
                                  March 8, 2005.




                                                                                                  Page 23
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                             STATUS                                   WITH CLOSURE
 16      90-02 (renumbered as           Previous TIGTA Assessment: We                  Agree – We determined
         180-16) – Validate the         determined the BSMO initiated a plan to        activities have been
         existing ELC matrix            establish a Requirements Management            completed, yet it will take
         decision-making process.       Office that would incorporate new exit         time to determine the
                                        criteria for Milestones 3, 4a, and 4b.         effectiveness of the Action
                                        However, this Office had yet to be             Item.
                                        established.14
                                        Corrective Action: The IRS commenced a
                                        review of all previous TIGTA reports for
                                        program-wide requirements management
                                        issues. Also, the IRS indicated it may adopt
                                        the applicable Carnegie Mellon Software
                                        Engineering Institute’s15 Capability
                                        Maturity Model Integration (CMMI)16
                                        capabilities as part of establishing the new
                                        Requirements Management Office and in
                                        developing more effective requirements
                                        development and management processes.
                                        JAMES Corrective Action Completion
                                        Date: April 29, 2005.
                                        IRS Status: Closed – The IRS closed this
                                        Action Item March 8, 2005.
 17      90-03 – Develop criteria for
         project decision making,                  Merged with actions taken under Action Items 180-11
         including impacts and                                         and 180-16
         trade-offs.




14
   The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005).
15
   The Software Engineering Institute is a Federally Funded Research and Development Center whose purpose is to
help others make measured improvements in their software engineering capabilities.
16
   The CMMI model provides guidance for an organization to use when developing its processes. These models
help an organization appraise its capability, establish priorities for improvement, and implement these
improvements.

                                                                                                            Page 24
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                         HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                       ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                              STATUS                                   WITH CLOSURE
 18      90-04 – Align senior            Previous TIGTA Assessment: No previous         Unable To Determine – The
         transformation experts into     TIGTA assessment has been made.                TIGTA has not scheduled an
         the four operating divisions,                                                  audit of the Action Item and
         the Chief Financial Officer,    IRS Status: Closed – The IRS developed a       does not have enough
         and the MITS organization.      Concept of Operations document for the         information or background
                                         operating divisions and the MITS               knowledge to be able to
                                         organization. The IRS closed this Action       express an opinion.
                                         Item March 8, 2005.
 19      90-05 – Make the diagnostic     Previous TIGTA Assessment: No previous         Unable To Determine – The
         tools (dashboard) work.         TIGTA assessment has been made.                TIGTA has not scheduled an
                                                                                        audit of the Action Item and
                                         IRS Status: Closed – The IRS reports it        does not have enough
                                         added measures to the dashboard, which is      information or background
                                         used to monitor performance for all project    knowledge to be able to
                                         releases in development. The IRS closed        express an opinion.
                                         this Action Item March 8, 2005.
 20      90-06 – Establish ongoing       Previous TIGTA Assessment: No previous         Agree – We are aware the
         third-party reviews.            TIGTA assessment has been made.                MITRE Corporation17 will
                                                                                        review the BSM program
                                         IRS Status: Closed – The IRS closed this       annually and the Software
                                         Action Item March 8, 2005.                     Engineering Institute will
                                                                                        review the CADE in 2005.
                                                                                        Therefore, it will take time to
                                                                                        determine the effectiveness of
                                                                                        the Action Item.
 21      90-07 – Refine change           Previous TIGTA Assessment: No previous         More Work Needed –
         request process.                TIGTA assessment has been made.                Activities conducted as part of
                                                                                        the BSM Challenges Plan
                                         IRS Status: Closed – All planned actions       have not completely addressed
                                         for this issue are complete; it has been       study weaknesses. See the
                                         officially handed off to the ACIO,             Additional Work Is
                                         Enterprise Services, to build out a process.   Required to Completely
                                         The Action Item was closed March 8, 2005.      Address Six Closed BSM
                                                                                        Challenges Plan Action
                                                                                        Items section in this report for
                                                                                        additional information on this
                                                                                        Action Item. See also
                                                                                        Recommendations
                                                                                        1 through 3 in this report.




17
     The MITRE Corporation (MITRE) is under contract to assist the IRS with the systems modernization.

                                                                                                              Page 25
                   The Business Systems Modernization Program Has Achieved
                     Mixed Success in Addressing Weaknesses Identified in
                                 Internal and External Studies



     ACTION ITEM                         HISTORICAL TIGTA                               TIGTA
     NUMBER AND                       ASSESSMENT/CURRENT IRS                         CONCURRENCE
#    DESCRIPTION                              STATUS                                 WITH CLOSURE
22   90-08 – Strengthen the IRS’     Previous TIGTA Assessment: No previous       Unable To Determine – The
     system engineering              TIGTA assessment has been made.              IRS reports the Action Item
     capability through external                                                  involves ongoing activities. In
     hiring or leverage of           IRS Status: Closed – The IRS reports 9 out   addition, the TIGTA has not
     additional MITRE/Northrop       of 10 positions in the Modernization         scheduled an audit of the
     Grumman Mission Services        Program Engineering organization have        Action Item and does not have
     capabilities.                   been filled. The IRS closed this Action      enough information or
                                     Item June 6, 2005.                           background knowledge to be
                                                                                  able to express an opinion.
23   90-09 – Determine               Previous TIGTA Assessment: No previous       Unable To Determine – The
     appropriate skills/sizing and   TIGTA assessment has been made.              IRS reports the Action Item
     “right-size” contracting                                                     involves ongoing activities. In
     organization in the IRS and     IRS Status: Closed – The Office of           addition, the TIGTA has not
     the Computer Sciences           Modernization Acquisition continues hiring   scheduled an audit of the
     Corporation.                    to fill 52 positions; the IRS closed this    Action Item and does not have
                                     Action Item January 27, 2005.                enough information or
                                                                                  background knowledge to be
                                                                                  able to express an opinion.




                                                                                                       Page 26
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                         HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                       ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                              STATUS                                   WITH CLOSURE
 24      90-10 – Assign business         Previous TIGTA Assessment: We                  Agree – The IRS is in the
         owners and architects to        determined the Business Requirements           process of completing
         validate business unit          Director (previously called the Business       corrective actions to all
         participation and               Architect) for the CADE project had not yet    relevant TIGTA
         accountability in projects.     been located/hired.18                          recommendations.
                                         Corrective Action: While recruiting efforts
                                         continue, MITRE Corporation employees
                                         and members from the Enterprise
                                         Architecture team are providing CADE
                                         project engineering and architecture
                                         support.
                                         JAMES Corrective Action Completion
                                         Date: Open.
                                         IRS Status: Closed – Roles and
                                         responsibilities of key positions in the new
                                         governance and management structure were
                                         clarified and incorporated into oversight
                                         committee charters and approved by the
                                         MITS Enterprise Governance committee.
                                         The Action Item was closed
                                         January 22, 2004.
 25      90-11 – Consistently
         conduct technical integration
         reviews for each project and
                                                               Merged into Action Item 180-06
         enterprise wide
         (performance,
         interface/integration).




18
  To Ensure the Customer Account Data Engine’s Success, Prescribed Management Practices Need to Be Followed
(Reference Number 2005-20-005, dated November 2004).



                                                                                                            Page 27
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                  TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                            CONCURRENCE
     #   DESCRIPTION                             STATUS                                    WITH CLOSURE
 26      90-12 (renumbered as           Previous TIGTA Assessment: We                   More Work Needed –
         180-19) – Ensure projects      determined the actions planned by the           Activities conducted as part of
         strictly follow the ELC and    PRIME contractor to close this Action Item      the BSM Challenges Plan
         appropriate alternatives       did not include steps to ensure projects        have not completely addressed
         within the ELC are selected.   strictly follow the ELC.19                      study weaknesses. See the
                                                                                        Additional Work Is
                                        Management Actions: The ACIO,                   Required to Completely
                                        Modernization Management,20 met with and        Address Six Closed BSM
                                        interviewed a number of individuals in the      Challenges Plan Action
                                        IRS business units, the TIGTA, and the          Items section in this report for
                                        Government Accountability Office. The           additional information on this
                                        ACIO also reviewed the four studies. As a       Action Item. See also
                                        result, the ACIO determined what he             Recommendation 6.
                                        believed to be the key barriers to success in
                                        the BSM program and created a plan to
                                        address these barriers.
                                        IRS Status: Closed – The IRS reports the
                                        PRIME contractor developed life cycle
                                        tailoring guidance21 between August and
                                        December 2004. The guidance was ready
                                        for approval; however, the IRS
                                        discontinued work on this Action Item due
                                        to the change in the IRS/PRIME contractor
                                        relationship. This is one of five action
                                        items closed due to the shift in program
                                        management and project integration
                                        responsibilities from the PRIME contractor
                                        to the IRS in early 2005. This Action Item
                                        was closed January 27, 2005.




19
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems Modernization Performance
Problems Are Successfully Addressed (Reference Number 2005-20-014, dated December 2004).
20
   In the fall of 2004, the ACIO, Modernization Management, became the new ACIO, BSM.
21
   Tailoring guidance describes how to navigate and adapt the ELC methodology to fit specific projects.

                                                                                                              Page 28
                      The Business Systems Modernization Program Has Achieved
                        Mixed Success in Addressing Weaknesses Identified in
                                    Internal and External Studies



         ACTION ITEM                     HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                   ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                          STATUS                                   WITH CLOSURE
 27      90-13 – Increase            Previous TIGTA Assessment: No previous         Unable To Determine – The
         understanding by            TIGTA assessment has been made.                TIGTA has not scheduled an
         development team of what                                                   audit of the Action Item and
         they are building.          IRS Status: Closed – The IRS developed a       does not have enough
                                     video tape and held “boot camps” for           information or background
                                     255 executives and development team            knowledge to be able to
                                     members. The Action Item was closed            express an opinion.
                                     January 19, 2004.
 28      90-14 – Clearly define      Previous TIGTA Assessment: We                  Agree – The IRS has
         business requirements and   determined the BSMO initiated a plan to        completed corrective actions
         tightly manage them to      establish a Requirements Management            to all relevant TIGTA
         control scope               Office that would incorporate new exit         recommendations.
         (e.g., Milestone 4a).       criteria for Milestones 3, 4a, and 4b.
                                     However, this Office had yet to be
                                     established.22
                                     Corrective Action: The IRS commenced a
                                     review of all previous TIGTA reports for
                                     program-wide requirements management
                                     issues. Also, the IRS indicated it may adopt
                                     the applicable Carnegie Mellon Software
                                     Engineering Institute’s CMMI capabilities
                                     as part of establishing the new
                                     Requirements Management Office and in
                                     developing more effective requirements
                                     development and management processes.
                                     JAMES Corrective Action Completion
                                     Date: April 29, 2005.
                                     IRS Status: Closed – The IRS reported the
                                     Requirements Management Office “stood
                                     up”23 and the Milestone 3, 4a, and 4b exit
                                     criteria were updated and validated. The
                                     Action Item was closed March 8, 2005.




22
   The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005).
23
   The stand-up process is defined as the establishment of a new organization with at least the minimum
requirements for operation.

                                                                                                        Page 29
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                             STATUS                                   WITH CLOSURE
 29      90-15 – Implement firm         Previous TIGTA Assessment: We                  Agree – While we have
         fixed-price (FFP) policy for   determined FFP contracting had not been        determined FFP contracting
         Milestones 4 and 5.            used to the fullest extent possible due to     has not been used to the fullest
                                        1) existing contracting barriers, such as      extent possible and made
                                        unstable system requirements and business      recommendations to further
                                        processes; 2) failure to follow best           increase the use of FFP
                                        practices; and 3) lack of measurable           contracting, we also
                                        contractor performance standards.24            determined the use of FFP
                                                                                       task orders within the BSM
                                        Corrective Action: To further balance risk     program has increased since
                                        between the IRS and the modernization          FY 2001. Therefore, we
                                        contractors, the Chief Information Officer     conclude the Action Item
                                        (CIO) stated the IRS has issued FFP            effectively corrected
                                        contracting guidance. In addition, the IRS     weaknesses found in the
                                        will continue to consider FFP contracting,     studies.
                                        address stabilizing requirements, and
                                        explore options to balance risk when the use
                                        of FFP contracting is not appropriate.
                                        Office of Audit Comment: While the CIO
                                        agreed with our recommendations, we were
                                        concerned the stated corrective actions had
                                        not corrected the issues or had not yet been
                                        implemented.
                                        JAMES Corrective Action Completion
                                        Dates: April 30, 2004 and May 1, 2004.
                                        IRS Status: Closed – The IRS closed this
                                        Action Item April 28, 2005.
 30      90-16 – Revise current
         contract with the PRIME
         contractor to align with new                         Merged into Action Item 180-08
         roles between the IRS and
         the PRIME contractor.




24
  While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).

                                                                                                             Page 30
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                             STATUS                                   WITH CLOSURE
 31      90-17 – Establish a BSM        Previous TIGTA Assessment: No previous         Agree – Activities have been
         Acquisition Executive.         TIGTA assessment has been made.                completed, yet it will take
                                                                                       time to determine the
                                        IRS Status: Closed – The IRS hired a BSM       effectiveness of the Action
                                        Acquisition Executive. The Action Item         Item.
                                        was closed January 21, 2004.
 32      90-18 – Establish              Previous TIGTA Assessment: We                  Agree – The IRS is in the
         independent architecture and   determined the absence of a dedicated          process of completing
         engineering team of IRS and    CADE system architect contributed to the       corrective actions to all
         contractor Business            inability of the IRS and the PRIME             relevant TIGTA
         Architects and Systems         contractor to communicate effectively to       recommendations.
         Engineers.                     refine and validate the CADE requirements.
                                        We also determined the Business
                                        Requirements Director (previously called
                                        the Business Architect) for the CADE
                                        project had not yet been located/hired.25
                                        Corrective Action: While recruiting efforts
                                        continue, MITRE Corporation employees
                                        and members from the Enterprise
                                        Architecture team are providing CADE
                                        project engineering and architecture
                                        support.
                                        JAMES Corrective Action Completion
                                        Date: Open.
                                        IRS Status: Closed – The CADE Joint
                                        Engineering Team was established, and the
                                        Action Item was closed January 15, 2004.
 33      90-19 (renumbered as           Previous TIGTA Assessment: No previous         Unable To Determine –
         180-18) – Start to test the    TIGTA assessment has been made.                During our audit, audit work
         business rules engine in the                                                  was being conducted to
         CADE environment.              IRS Status: Closed – A plan and work           review this Action Item.
                                        breakdown schedule for the effort have         Since the completion of our
                                        been completed in partnership with the         audit work, an FY 2006
                                        PRIME contractor. Analysis work is to be       TIGTA audit report26 has been
                                        completed by July 2005, and the final report   issued regarding the Action
                                        is scheduled to be issued in August 2005.      Item.
                                        The Action Item was closed June 5, 2005.


25
   To Ensure the Customer Account Data Engine’s Success, Prescribed Management Practices Need to Be Followed
(Reference Number 2005-20-005, dated November 2004).
26
   Instilling More Discipline to Business Rules Management Will Help the Modernization Program Succeed
(Draft Report issued October 2005).

                                                                                                           Page 31
                  The Business Systems Modernization Program Has Achieved
                    Mixed Success in Addressing Weaknesses Identified in
                                Internal and External Studies



     ACTION ITEM                      HISTORICAL TIGTA                               TIGTA
     NUMBER AND                    ASSESSMENT/CURRENT IRS                         CONCURRENCE
#    DESCRIPTION                           STATUS                                 WITH CLOSURE
34   180-01 – Raise tax
     administration
     understanding across the
                                                        Merged into Action Item 90-13
     PRIME contractor alliance
     through tax administration
     “boot camps.”
35   180-02 – Co-locate           Previous TIGTA Assessment: No previous       Unable To Determine – The
     resources (both senior       TIGTA assessment has been made.              IRS reports the Action Item
     program managers and                                                      involves ongoing activities. In
     project personnel).          IRS Status: Closed – The Office of           addition, the TIGTA has not
                                  Procurement is in the process of moving to   scheduled an audit of the
                                  the New Carrollton, Maryland, Federal        Action Item and does not have
                                  Building. Other co-locations were            enough information or
                                  considered and deemed not feasible. The      background knowledge to be
                                  Action Item was closed March 8, 2005.        able to express an opinion.




                                                                                                    Page 32
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                  TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                            CONCURRENCE
     #   DESCRIPTION                             STATUS                                    WITH CLOSURE
 36      180-03 – Integrate             Previous TIGTA Assessment: We                   Agree – The IRS reports it has
         management processes           determined the integrator role is not clearly   instituted a method for
         across the program.            defined in the BSM program. Clearly             reviewing and improving
                                        defining the integrator for non-PRIME           19 management process areas.
                                        contractor projects and documenting the         It will take time to determine
                                        related responsibilities and processes will     the effectiveness of the Action
                                        be necessary to assure the successful           Item.
                                        integration of projects developed by
                                        multiple contractors.27
                                        Corrective Action: Steps are underway to
                                        restructure the MITS organization to
                                        include this new role. The ACIO,
                                        Enterprise Services, will ultimately manage
                                        highly complex information system
                                        initiatives such as configuration
                                        management28 and systems engineering. In
                                        the near term, the ACIO, BSM, will
                                        continue to implement and integrate
                                        improvements across the BSM program.
                                        IRS Status: Closed – A process is now
                                        fully operational in support of
                                        19 management process areas in the BSM
                                        program. The Action Item was closed
                                        March 8, 2005.
 37      180-04 – “Right-size”
         contracting organizations in
                                                                Merged into Action Item 90-09
         IRS and PRIME
         Contracting.




27
   The Office of Release Management Can Improve Controls for Modernization Program Coordination (Reference
Number 2004-20-157, dated September 2004) and The Modernization Program Is Establishing a Requirements
Management Office to Address Requirements Development and Management Problems (Reference
Number 2005-20-023, dated January 2005).
28
   Configuration management is a discipline that applies technical and administrative direction and surveillance to
identify and document the functional and physical characteristics of a piece of hardware or software, control changes
to those characteristics and their related documentation, record and report change processing and implementation
status, and verify compliance with specified requirements.

                                                                                                             Page 33
                      The Business Systems Modernization Program Has Achieved
                        Mixed Success in Addressing Weaknesses Identified in
                                    Internal and External Studies



         ACTION ITEM                        HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                      ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                             STATUS                                   WITH CLOSURE
 38      180-05 – Strengthen IRS        Previous TIGTA Assessment: No previous         Agree – Activities have been
         program and project            TIGTA assessment has been made.                completed, yet it will take
         manager cadre.                                                                time to determine the
                                        IRS Status: Closed – Four key, critical-pay    effectiveness of the Action
                                        project manager slots were filled. The         Item.
                                        Action Item was closed January 27, 2005.
 39      180-06 – Conduct key           Previous TIGTA Assessment: We                  Agree – The IRS has
         technical reviews throughout   determined key CMMI requirements               completed corrective actions
         the ELC; baseline approved     development and management guidelines          to all relevant TIGTA
         and placed under               relating to configuration management and       recommendations.
         configuration management.      technical reviews had not been planned into
                                        the new Requirements Management
                                        Office’s responsibilities.29
                                        Corrective Action: The IRS commenced a
                                        review of all previous TIGTA reports for
                                        program-wide requirements management
                                        issues. Also, the IRS indicated it may adopt
                                        the applicable CMMI capabilities as part of
                                        establishing the new Requirements
                                        Management Office.
                                        JAMES Corrective Action Completion
                                        Date: April 29, 2005.
                                        IRS Status: Closed – The revised ELC
                                        framework is now available, and
                                        documentation has been approved. The
                                        Action Item was closed June 6, 2005.




29
 The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005).

                                                                                                           Page 34
                      The Business Systems Modernization Program Has Achieved
                        Mixed Success in Addressing Weaknesses Identified in
                                    Internal and External Studies



         ACTION ITEM                     HISTORICAL TIGTA                                  TIGTA
         NUMBER AND                   ASSESSMENT/CURRENT IRS                            CONCURRENCE
     #   DESCRIPTION                          STATUS                                    WITH CLOSURE
 40      180-07 – Strengthen         Previous TIGTA Assessment: We                   Agree – While we determined
         development environment     determined the activities scheduled to close    the activities scheduled to
         by expanding capacity,      this Action Item included no activities for     close this Action Item did not
         conducting greater          automating testing or separating the            include activities for
         automating testing, and     infrastructure environment.30                   automating testing or
         separating Infrastructure                                                   separating the infrastructure
         Development.                Management Actions: The ACIO,                   environment, the ACIO, BSM,
                                     Modernization Management, met with and          completed corrective actions
                                     interviewed a number of individuals in the      to our prior report by creating
                                     IRS business units, the TIGTA, and the          highest priority initiatives to
                                     Government Accountability Office. The           deal with key barriers to
                                     ACIO also reviewed the four studies. As a       success in the BSM program.
                                     result, the ACIO determined what he
                                     believed to be the key barriers to success in
                                     the BSM program and created a plan to
                                     address these barriers. The ACIO
                                     established detailed, highest priority
                                     initiatives to deal with these root cause
                                     problems.
                                     IRS Status: Closed – An action plan has
                                     been completed. The Development,
                                     Integration, and Test Environment (DITE)31
                                     lab is now operational. The Action Item
                                     was closed June 1, 2004.
 41      180-08 – Implement          Previous TIGTA Assessment: No previous          Unable To Determine – The
         accepted recommendations    TIGTA assessment has been made.                 IRS reports the Action Item
         from the Acquisition                                                        involves ongoing activities. In
         Solutions Incorporated      IRS Status: Closed – The IRS management         addition, the TIGTA has not
         study.                      team considered Acquisition Solutions           scheduled an audit of the
                                     Incorporated study recommendations and          Action Item and does not have
                                     found the recommendations were either           enough information or
                                     addressed as part of other initiatives          background knowledge to be
                                     (completed or in progress) or were no           able to express an opinion.
                                     longer applicable. The IRS closed this
                                     Action Item June 6, 2005.




30
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems Modernization Performance
Problems Are Successfully Addressed (Reference Number 2005-20-014, dated December 2004).
31
   The DITE is a consolidated development and testing function for three related BSM infrastructure support
environments: the Solutions Development Laboratory, Virtual Development Environment, and Enterprise
Integration and Test Environment.

                                                                                                          Page 35
                      The Business Systems Modernization Program Has Achieved
                        Mixed Success in Addressing Weaknesses Identified in
                                    Internal and External Studies



         ACTION ITEM                     HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                   ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                          STATUS                                   WITH CLOSURE
 42      180-09 – Implement          Previous TIGTA Assessment: No previous         More Work Needed –
         enhanced subcontractor      TIGTA assessment has been made.                Activities conducted as part of
         management model.                                                          the BSM Challenges Plan
                                     IRS Status: Closed – The PRIME                 have not completely addressed
                                     contractor began actions to improve the        study weaknesses. See the
                                     subcontractor management model. This is        Additional Work Is
                                     one of five Action Items closed due to the     Required to Completely
                                     shift in program management and project        Address Six Closed BSM
                                     integration responsibilities from the PRIME    Challenges Plan Action
                                     contractor to the IRS in early 2005. The       Items section in this report for
                                     Action Item was closed March 8, 2005.          additional information on this
                                                                                    Action Item. See also
                                                                                    Recommendation 5 in this
                                                                                    report.
 43      180-10 – Operationalize     Previous TIGTA Assessment: No previous         Unable To Determine –
         business rules management   TIGTA assessment has been made.                During our audit, audit work
         process.                                                                   was being conducted to
                                     IRS Status: Closed – The IRS has deemed        review this Action Item.
                                     business rules management as a highest         Since the completion of our
                                     priority initiative for the next 6 months      audit work, an FY 2006
                                     where it will define the scope, acquire a      TIGTA audit report32 has been
                                     business rules repository, and conduct a       issued regarding the Action
                                     rules engine utilization technical analysis.   Item.
                                     The Action Item was closed March 8, 2005.
 44      180-11 – Clarify roles      Previous TIGTA Assessment: No previous         More Work Needed –
         between the IRS and the     TIGTA assessment has been made.                Activities conducted as part of
         PRIME contractor.                                                          the BSM Challenges Plan
                                     IRS Status: Closed – Some of the Bain and      have not completely addressed
                                     Company recommendations were                   study weaknesses. See the
                                     addressed. This is one of five action items    Additional Work Is
                                     closed due to the shift in program             Required to Completely
                                     management and project integration             Address Six Closed BSM
                                     responsibilities from the PRIME contractor     Challenges Plan Action
                                     to the IRS in early 2005. The Action Item      Items section in this report for
                                     was closed March 8, 2005.                      additional information on this
                                                                                    Action Item. See also
                                                                                    Recommendation 6 in this
                                                                                    report.




32
  Instilling More Discipline to Business Rules Management Will Help the Modernization Program Succeed
(Draft Report issued October 2005).

                                                                                                          Page 36
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                     HISTORICAL TIGTA                                 TIGTA
         NUMBER AND                   ASSESSMENT/CURRENT IRS                           CONCURRENCE
     #   DESCRIPTION                          STATUS                                   WITH CLOSURE
 45      180-12 – Fill gaps in the   Previous TIGTA Assessment: No previous         Unable To Determine – The
         Enterprise Architecture     TIGTA assessment has been made.                TIGTA has not scheduled an
         business and technology                                                    audit of the Action Item and
         architecture (Concept of    IRS Status: Closed – Enterprise                does not have enough
         Operations, Vision and      Architecture version 2.4 was approved by       information or background
         Strategy, critical          the MITS Enterprise Governance                 knowledge to be able to
         cross-project issues).      committee. Two updates were published to       express an opinion.
                                     the Enterprise Architecture, and a
                                     significant amount of material was collected
                                     for a third update. A process for updating
                                     the Enterprise Architecture on a regular
                                     basis has been established. The Action
                                     Item was closed November 1, 2004.
 46      180-13 – Focus on           Previous TIGTA Assessment: We                  Agree – The IRS is in the
         program-level release       recommended the CIO determine whether          process of completing
         engineering.                and how the BSMO will fulfill the BSM          corrective actions to all
                                     program integrator role and document the       relevant TIGTA
                                     related responsibilities and processes. In     recommendations.
                                     addition, we recommended procedures be
                                     developed and updated for the Office of
                                     Release Management.33
                                     Corrective Action: Steps are underway to
                                     restructure the MITS organization to
                                     include this new role. Further, the CIO will
                                     develop, complete, or update guidance for
                                     managing the activities in the Office of
                                     Release Management.
                                     JAMES Corrective Action Completion
                                     Date: Open.
                                     IRS Status: Closed – The IRS completed
                                     the transition of release architecture data.
                                     Training of IRS division personnel was
                                     completed. The Enterprise Transition
                                     Strategy was released in final on
                                     January 14, 2005. The Action Item was
                                     closed January 27, 2005.




33
 The Office of Release Management Can Improve Controls for Modernization Program Coordination (Reference
Number 2004-20-157, dated September 2004).

                                                                                                        Page 37
                       The Business Systems Modernization Program Has Achieved
                         Mixed Success in Addressing Weaknesses Identified in
                                     Internal and External Studies



         ACTION ITEM                         HISTORICAL TIGTA                                TIGTA
         NUMBER AND                       ASSESSMENT/CURRENT IRS                          CONCURRENCE
     #   DESCRIPTION                              STATUS                                  WITH CLOSURE
 47      180-14 – Rationalize the       Previous TIGTA Assessment: No previous         Agree – While the TIGTA has
         oversight of the BSM           TIGTA assessment has been made.                not audited this Action Item,
         program by streamlining                                                       TIGTA officials met with
         process and eliminating        IRS Status: Closed – Stakeholder               MITS Stakeholder
         duplications.                  management is now centralized under a          Management officials to
                                        senior manager who reports directly to the     discuss the scope of TIGTA
                                        CIO. All outstanding TIGTA corrective          BSM audits and agreed on
                                        actions have been reviewed and prioritized.    oversight roles and
                                        MITS organization management now meets         responsibilities for the IRS
                                        regularly with external oversight functions.   and the external oversight
                                        The Action Item was closed April 28, 2005.     functions.34 Therefore, the
                                                                                       Action Item effectively
                                                                                       corrected weaknesses found in
                                                                                       the studies.
 48      180-15 – Reduce the number     Previous TIGTA Assessment: No previous         Agree – Following prior
         of projects being conducted    TIGTA assessment has been made.                TIGTA assessments of the
         at the same time.                                                             BSM program, significant
                                        IRS Status: Closed – Some projects were        decreases in the BSM budget,
                                        canceled and others were put on hold. The      and continuing problems with
                                        IRS has built a Resource Capacity              key modernization processes,
                                        Management model to more efficiently use       the IRS scaled back FY 2004
                                        current resources in projects and to assess    BSM operations. Therefore,
                                        skill deficiencies and consider further        the Action Item effectively
                                        cutbacks in projects, if necessary. The        corrected weaknesses found in
                                        Action Item was closed                         the studies.
                                        September 23, 2004.


Source: BSM Challenges Plan, previous TIGTA audit reports, the JAMES, and TIGTA analysis of the Current
Status of BSM Challenges Plan dated June 6, 2005.




34
     The results of this meeting are documented in Program Oversight, dated January 13, 2005.




                                                                                                           Page 38
                      The Business Systems Modernization Program Has Achieved
                        Mixed Success in Addressing Weaknesses Identified in
                                    Internal and External Studies



                                                                                                   Appendix V

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.


ELC Processes
A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    •    Life-Cycle Processes, which are organized into phases and subphases and which address
         all domains of business change.
    •    Management Processes, which are organized into management areas and which operate
         across the entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.

                                                                                                              Page 39
                                    The Business Systems Modernization Program Has Achieved
                                      Mixed Success in Addressing Weaknesses Identified in
                                                  Internal and External Studies




                                                     Enterprise Life-Cycle Processes



                                    IRS Governance and Investment Decision Management
  Management




                                             Program Management and Project Management

                                    Architectural Engineering / Development Coordination

                                                     Management Support Processes


                                                                                                  Business Processes




                                                                                                                           Operations & Support
                                                                                                          Applications
                Vision & Strategy




                                                      Development
                                      Architecture




                                                                                  Deployment
                                                                    Integration
  Life Cycle




                                                                                                                  Data


                                                                                               Organizational Change


                                                                                               Technical Infrastructure


                                                                                               Facilities Infrastructure


   Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.

                                                                                                                                              Page 40
                 The Business Systems Modernization Program Has Achieved
                   Mixed Success in Addressing Weaknesses Identified in
                               Internal and External Studies



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.


Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its


                                                                                            Page 41
                  The Business Systems Modernization Program Has Achieved
                    Mixed Success in Addressing Weaknesses Identified in
                                Internal and External Studies



       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.


Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.




                                                                                          Page 42
              The Business Systems Modernization Program Has Achieved
                Mixed Success in Addressing Weaknesses Identified in
                            Internal and External Studies



•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 43
                     The Business Systems Modernization Program Has Achieved
                       Mixed Success in Addressing Weaknesses Identified in
                                   Internal and External Studies



                                                                                                 Appendix VI

                      Business Systems Modernization
                            Project Descriptions

The following is a list of Business Systems Modernization projects.
Custodial Accounting Project (CAP) – The CAP will be a single, integrated data repository of
taxpayer account information, integrated with the general ledger1 and accessible for management
analysis and reporting. The first release of the CAP will extract taxpayer account data from the
Individual Master File (IMF) for the Taxpayer Account Subledger.2
Customer Account Data Engine (CADE) – The CADE is the foundation for managing
taxpayer accounts in the IRS modernization plan. It will consist of databases and related
applications that will replace the IRS’ existing Master File processing systems and will include
applications for daily posting, settlement, maintenance, refund processing, and issue detection
for taxpayer tax account and return data.
Development, Integration, and Testing Environments (DITE) – The DITE is a consolidated
administrative and oversight function for three related Business Systems Modernization
infrastructure support environments: the Solutions Development Laboratory, Virtual
Development Environment, and Enterprise Integration and Test Environment.
e-Services – The e-Services project provides a set of web-based business products as incentives
to third parties to increase electronic filing, in addition to providing electronic customer account
management capabilities to all businesses, individuals, and other customers.
Enterprise Integration and Test Environment (EITE) – The EITE provides a comprehensive
integration and testing environment to support integration and testing of components from
multiple projects.
Infrastructure Shared Services (ISS) – The ISS program’s goal is to deliver a fully integrated
shared information technology infrastructure to include hardware, software, shared applications,
data, telecommunications, security, and an enterprise approach to systems and operations
management.



1
  A general ledger is a set of accounts used to summarize an organization’s financial transactions by transaction type
(e.g., cash receipts, accounts receivable, or rental expenses).
2
  The IMF is the Internal Revenue Service database that maintains transactions or records of individual tax accounts.
The Taxpayer Account Subledger will be an integrated data repository of taxpayer account information containing
detailed taxpayer account history and unpaid assessment information.

                                                                                                             Page 44
                  The Business Systems Modernization Program Has Achieved
                    Mixed Success in Addressing Weaknesses Identified in
                                Internal and External Studies



Integrated Financial System (IFS) – The IFS is intended to address administrative financial
management weaknesses. The first release of the IFS will include the Accounts Payable,
Accounts Receivable, General Ledger, Budget Execution, Cost Management, and Financial
Reporting activities. A future IFS release will be needed to fully resolve all administrative
financial management weaknesses.
Solutions Development Laboratory (SDL) – The SDL provides an environment that permits
the rapid installation and configuration of proposed or potential systems solutions and provides
the flexibility to scale and respond to multiple, concurrent projects.
Virtual Development Environment (VDE) – The VDE provides a software development
environment enabling geographically distributed projects and developers access to standardized
tools, information, and services.




                                                                                          Page 45
    The Business Systems Modernization Program Has Achieved
      Mixed Success in Addressing Weaknesses Identified in
                  Internal and External Studies



                                                Appendix VII

Management’s Response to the Draft Report




                                                        Page 46
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 47
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 48
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 49
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 50
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 51
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 52
The Business Systems Modernization Program Has Achieved
  Mixed Success in Addressing Weaknesses Identified in
              Internal and External Studies




                                                    Page 53
